   May 28, 2004




FINANCIAL MANAGEMENT
DoD Costs of Licensing
Space-Related Exports and
Monitoring Satellite Launches
(D-2004-085)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DTRA                  Defense Threat Reduction Agency
DTSA                  Defense Technology Security Administration
IG DoD                Inspector General of the Department of Defense
OMB                   Office of Management and Budget
USD(C/CFO)            Under Secretary of Defense (Comptroller)/Chief Financial Officer
          Office of the Inspector General of the Department of Defense
Report No. D-2004-085                                                          May 28, 2004
   (Project No. D2004LG-0048)

                DoD Costs of Licensing Space-Related Exports
                     and Monitoring Satellite Launches

                                 Executive Summary

Who Should Read This Report and Why? Financial management professionals and
individuals who manage reimbursable programs should read this report. This report
discusses topics of significant congressional interest.

Background. This report is required by Public Law 108-136, “National Defense
Authorization Act for Fiscal Year 2004,” November 24, 2003. That law requires that we
conduct a study of the costs related to national security controls on satellite exports that
were incurred by DoD for FY 1999 through FY 2003 and provide a report to the
Committees on Armed Services of the Senate and the House of Representatives. The
report was to identify and assess the costs related to monitoring satellite launches in
foreign countries and costs related to reviewing applications for space-related export
licenses. For the costs of monitoring satellite launches, we were required to review the
costs reimbursed by satellite exporters, including the extent to which indirect costs were
included in such reimbursement. The Defense Threat Reduction Agency maintained
accounting records for the Defense Technology Security Administration (DTSA) from
FY 1999 through the beginning of FY 2003. We were unable to review FY 2003 costs
because DTSA had not determined those costs in time for inclusion in this report. In a
previous report issued by the Inspector General of the Department of Defense,
Report No. D-2003-070, “DoD Involvement in Export Enforcement Activities,”
March 28, 2003, we reported that DTSA had established an effective satellite monitoring
program.

The Space Directorate, DTSA, has two main functions. First, it is the policy and
technology review office for space-related export licenses. Between March 1999 and
September 2002, the Space Directorate reviewed 7,398 applications for export licenses.
Second, it monitors space-related exports where the Department of State has identified a
monitoring and compliance role for DTSA. As part of that function, the Space
Directorate approves technology transfer control plans; reviews technical data; attends
technical meetings; and monitors the shipment, preparation, launch, and possible debris
recovery of satellites launched in foreign countries. From FY 1999 through FY 2002, the
Space Directorate monitored 37 satellite launches. In addition, as of FY 2002, the Space
Directorate began providing assistance to the Missile Defense Agency on a joint
U.S.-Russia project.

Results. For FY 1999 through FY 2002, DTRA and the Space Directorate did not
properly bill satellite exporters for monitoring services. The Space Directorate did not
adequately adjust estimates to reflect actual costs or allocate indirect costs between all of
its services. The costs recorded by the Defense Threat Reduction Agency for the Space
Directorate and the costs recorded by the Space Directorate did not always match the
costs on supporting documentation. As a result, of the $14.2 million billed, the Space
Directorate may have overcharged satellite exporters nearly $2.6 million. However,
before a final amount can be determined, the Director, Defense Threat Reduction Agency
and the Director, DTSA need to review the accuracy of their respective records, make
any needed changes, and establish appropriate accounting controls. (See the Finding
section of the report for the detailed recommendations.)

Management Comments and Audit Response. Comments from the Deputy Under
Secretary of Defense (Technology Security Policy and Counterproliferation) were
generally responsive. However, in response to the final report, we request that the
Deputy Under Secretary address how costs associated with providing support to the
Missile Defense Agency will be allocated and what procedures will be developed for
allocating costs to all Space Directorate functions. We request that the Deputy Under
Secretary provide comments to the final report by July 27, 2004. Comments from the
Director, Defense Threat Reduction Agency were responsive. See the Finding section of
the report for a discussion of the management comments and the Management Comments
section for the complete text of the comments.




                                          ii
Table of Contents

Executive Summary                                                             i

Background                                                                    1

Objectives                                                                    3

Findings
     Billing for Satellite Monitoring Costs                                  4

Appendixes
     A. Scope and Methodology                                                19
         Prior Coverage                                                      20
     B. Allocation of Indirect Costs                                         21
     C. Space Directorate Costs                                              23
     D. Travel Expenses                                                      29
     E. Differences Between Space Directorate and Defense Threat Reduction
          Agency Records                                                     31
     F. Report Distribution                                                  32

Management Comments
     Under Secretary of Defense for Policy                                   35
     Defense Threat Reduction Agency                                         40
    This audit was performed to meet requirements of Public Law 108-136, “National
    Defense Authorization Act for Fiscal Year 2004,” November 24, 2003, which
    states in section 1212:

    “(a) Study.—The Inspector General of the Department of Defense shall conduct a
    study of the costs incurred by the Department of Defense for each fiscal year from
    fiscal year 1999 through fiscal year 2003 relating to national security controls on
    satellite exports. As part of such study, the Inspector General shall identify for
    each such fiscal year the amounts expended by the Department of Defense (1) for
    the monitoring of launches of satellites and related items in a foreign country
    pursuant to section 1514 of the Strom Thurmond National Defense Authorization
    Act for Fiscal Year 1999 (Public Law 105-261; 22 U.S.C. 2778 note), and (2) in
    connection with applications for licenses for the export of satellites and related
    items (as that term is defined in section 1516 of that Act).

    (b) Report.—Not later than April 1, 2004, the Inspector General shall submit to
    the Committees on Armed Services of the Senate and the House of
    Representatives a report on the study under subsection (a). That report shall
    include the following:

           (1) An identification and assessment of the costs referred to in
                subsection (a), shown in the aggregate and separately, by fiscal year
                and by clauses (1) and (2) of that subsection.

           (2) A review of the costs referred to in clause (1) of subsection (a), for
                which the Department of Defense has been reimbursed by the
                person or entity receiving the satellite launch monitoring services
                involved, including the extent to which indirect costs were included
                in such reimbursement.”

Background
    U.S. companies produce and sell space-related hardware and commercial
    satellites that are launched either in the United States or abroad. DoD monitors
    foreign launches that use U.S. technology because of the militarily sensitive
    technology. Following a 1988 Presidential decision to permit the launch of
    U.S. satellites on People’s Republic of China (China) rockets, DoD assigned the
    responsibility for monitoring foreign launches to the Defense Technology
    Security Administration (DTSA). Following a congressional investigation into
    the release of U.S. technical information on advanced thermonuclear weapons,
    missiles, and space technology, Public Law 105-261, “Strom Thurmond National
    Defense Authorization Act for Fiscal Year 1999,” October 17, 1998, and Public
    Law 106-65, “National Defense Authorization Act for Fiscal Year 2000,”
    October 5, 1999, include requirements to strengthen export controls on satellite
    and missile technology.

    Strengthening Export Controls. Congress strengthened export controls on
    satellite and missile technology in Public Laws 105-261 and 106-65. Public
    Law 105-261, section 1514(a)(2), requires the Secretary of Defense to monitor all
    aspects of licensed satellite export launches to ensure that there is no


                                         1
           unauthorized transfer of technology. The monitoring is to cover technical
           discussions and activities; satellite processing and launch activities; and activities
           related to launch failures, delays, or cancellations. Public Law 105-261 also
           requires entities that receive monitoring services to fully reimburse DoD for the
           costs of those services.

           Public Law 106-65, section 1404, requires DoD to prepare technology transfer
           control plans1 with enhanced security arrangements for satellite launches. It also
           requires that launch security personnel report to launch monitors, receive training
           in the International Trafficking in Arms Regulations,2 have significant satellite
           launch experience and expertise, and hold, at minimum, a security clearance level
           of secret. Public Law 106-65, section 1409, requires DoD to establish
           mechanisms for private industry to pay DoD for estimated monitoring costs
           before each fiscal year begins. If actual costs differ from the payments made to
           DoD, the law requires DoD to collect or refund the difference.
           DoD Program Management. The Office of the Under Secretary of Defense for
           Policy develops, coordinates, and oversees implementation of policy for
           international technology transfers through the Deputy Under Secretary of Defense
           (Technology Security Policy and Counterproliferation). The Deputy Under
           Secretary supervises and directs DoD activities and develops DoD policy for
           export controls. The Deputy Under Secretary also is the Director, DTSA. The
           primary mission of DTSA is to develop and implement DoD policies on
           international transfers of defense-related goods, services, and technologies. In
           October 1998, DTSA functions were transferred to the Technology Security
           Directorate, Defense Threat Reduction Agency (DTRA). In August 2001, the
           Deputy Secretary of Defense announced the reestablishment of DTSA. When the
           reestablishment was implemented in 2003, the functions were transferred back to
           DTSA. DTRA maintained accounting records for DTSA from FY 1999 through
           the beginning of FY 2003.

           The DTSA Space Directorate has two main functions. First, it is the policy and
           technology review office for space-related export licenses. According to the
           Chief, Space Directorate, the directorate reviews space-related portions of export
           licenses compiled by DTSA. According to Space Directorate records, between
           March 1999 and September 2002, it had reviewed 7,398 applications for export
           licenses related to spacecraft systems and associated equipment.3 Second, the
           Space Directorate monitors space-related exports where the Department of State
           has identified a monitoring and compliance role for DTSA. That function
           includes preparing technology transfer control plans; reviewing technical data
           proposed for export; attending technical meetings between U.S. and foreign

1
    Technology transfer control plans outline the enforcement of export license provisions and may include
    instructions for debris recovery, transportation, security, and interactions between U.S. and foreign
    parties.
2
    The International Traffic in Arms Regulations implements the “Arms Export Control Act,” section 2778,
    title 22, United States Code. That regulation authorizes the President to control the export and import of
    defense articles and services.
3
    The International Traffic in Arms Regulations, part 121, provides for licenses for spacecraft systems and
    equipment including the spacecraft and associated hardware, ground support equipment, and technical
    data related to the manufacturing or production of those items.



                                                        2
           parties; and monitoring the shipment, preparation, launch, and possible debris
           recovery of foreign satellite launches. In Inspector General of the Department of
           Defense (IG DoD) Report No. D-2003-070, “DoD Involvement in Export
           Enforcement Activities,” March 28, 2003, we reported that DTSA had an
           effective program for monitoring satellite launches in foreign nations.

           Procedures Used to Bill Satellite Exporters. According to draft DTSA
           Operating Instruction SOP-02, “Technology Safeguard Monitoring for Foreign
           Launches of U.S. Commercial Satellites,” satellite exporters are to reimburse
           DoD for satellite launch monitoring expenses through a reimbursement procedure
           filed with the Space Directorate. “Procedures for Reimbursement of Costs for the
           DoD Space Launch Monitoring Program,” states that reimbursable costs include,
           but are not limited to, communications, contracted services, equipment, facilities,
           salaries, training, transportation, and travel. According to the procedure,
           companies advance their share of the estimated costs for the monitoring program
           at the beginning of each fiscal year. The Space Directorate adjusts assessments
           quarterly and at the end of each fiscal year. The year-end adjustment reconciles
           assessments against monitoring costs and advises each company of excess
           payments or additional assessments. Space Directorate officials explained that
           travel expenses are billed directly to the exporter for which the travel expenses
           were incurred, and after subtracting those travel expenses from total obligations,4
           the remaining obligations are allocated proportionately to the satellite exporters.
           The allocation to each exporter is based on the percentage of staff time used to
           monitor that company’s satellite exports.

           Satellite Launches. From FY 1999 through FY 2002, DTSA monitored
           37 satellite launches. U.S. companies, including Lockheed Martin Corporation;
           The Boeing Company; Loral Space and Communications, Limited; and Motorola,
           Incorporated, reimbursed $14.2 million to DoD for satellite launch monitoring
           services. Locations where DTSA monitored satellite launches included China,
           Kazakhstan, Russia, and from a ship in the Pacific Ocean.

Objectives
           Our initial objective was to identify and assess costs incurred by, or allocated to,
           the Space Directorate, DTSA, related to national security controls on satellite
           exports for FY 1999 through FY 2003. Because the Space Directorate did not
           determine its costs for FY 2003 in time for inclusion in our review, we revised the
           period of review from FY 1999 through FY 2002. Specifically, we identified and
           assessed DoD costs for monitoring satellite launches in foreign countries and
           evaluated the extent to which indirect costs were included in the amounts
           reimbursed by entities receiving those services from DoD. We also identified and
           assessed the costs associated with reviewing applications for space-related export
           licenses. There were scope limitations that materially impacted the results of this
           review. See Appendix A for a discussion of the scope and methodology, scope
           limitations, and prior coverage.
4
    Office of Management and Budget Circular No. A-11, “Preparation, Submission, and Execution of the
    Budget,” July 25, 2003, defines an obligation as a binding agreement that will result in immediate or
    future outlays.



                                                      3
                    Billing for Satellite Monitoring Costs
                    From FY 1999 through FY 2002, DTRA accounting records identified that
                    the Space Directorate expended about $12.2 million for monitoring
                    launches of satellites and related items, but DTRA and the Space
                    Directorate did not properly bill satellite exporters for monitoring services.
                    Specifically, DTRA and the Space Directorate did not adequately adjust
                    billed estimates to reflect actual accrued expenditures and included
                    indirect accrued expenditures that should have been charged to other
                    activities, such as the review of applications for satellite export licenses.
                    In addition, neither direct nor indirect accrued expenditures matched the
                    costs on supporting documentation, and fringe benefit rates published by
                    the Under Secretary of Defense (Comptroller)/Chief Financial Officer
                    (USD[C/CFO]) were not used to bill satellite exporters. The improper
                    billings occurred because the Space Directorate did not have adequate
                    procedures for adjusting estimates, DoD made a policy decision to bill
                    satellite exporters for the cost of reviewing space-related export licenses,
                    and there were inadequate procedures for evaluating and reconciling
                    accounting data. As a result, based on the limited information we
                    obtained and reviewed, the Space Directorate may have overcharged
                    satellite exporters nearly $2.6 million.


Reimbursement and Accounting Requirements
           Public Law 105-261. Public Law 105-261, section 1514(a)(2)(A), states that
           when a license for the export of a satellite or related items for launch in a foreign
           country has been approved, the cost of monitoring services shall be fully
           reimbursed to DoD by the person or entity receiving such services.

           Federal Regulation. Office of Management and Budget (OMB)
           Circular No. A-25, “User Charges,” July 8, 1993, establishes Federal policy
           regarding fees assessed for Government services. The Circular covers activities
           that provide special benefits to recipients beyond those benefits provided to the
           general public. If the fee for an activity is covered by a statute or another circular,
           the statute or circular would take precedence. Circular No. A-25 requires
           agencies to recover all direct and indirect costs of providing special benefits. It
           states that full cost includes both funded and unfunded5 retirement costs.

           Federal Accounting Standards. The Statement of Federal Financial Accounting
           Standards No. 4, “Managerial Cost Accounting Standards,” July 31, 1995, states
           that reporting entities should accumulate and report the costs of their activities.
           The Standard allows costs to be accumulated either through the use of cost
           accounting systems or cost finding techniques. It states that reporting entities
           should assign the full cost of resources that directly or indirectly contribute to
           products and services (outputs) through the most appropriate costing methods or

5
    Unfunded costs are costs not included in the performing activity’s current appropriations or fund
    accounts.



                                                       4
cost finding techniques and should consistently follow those methods and
techniques. The Standard also states that cost information serves as an important
tool in reimbursements required under Office of Management Budget
Circular No. A-25.

The Standard defines direct and indirect cost and provides examples. It defines
direct costs as costs specifically identified with an output and includes salaries
and employee benefits of those who work directly on the output; materials and
supplies used for the output; costs associated with equipment, facilities, office
space, and utilities that are used exclusively to produce the output; and costs from
other segments or entities used to produce the output. It defines indirect costs as
costs that are jointly or commonly used to produce two or more outputs that are
not specifically identifiable with any of the outputs and include general
administrative services, general research and technical support, operating and
maintenance, rent, and security costs. The Standard also states that general
management and administrative support costs that cannot be allocated, assigned,
or traced to segments or their outputs should be reported on the entity’s financial
statements as costs not assigned to programs.

The Standard defines cost assignment as a process that ultimately identifies costs
with outputs. It does not prescribe a cost assignment methodology but describes
three methods of assigning costs to outputs—direct costing, cause-and-effect, and
allocation. It explains that direct costing should be used for expenses that account
for a substantial portion of the cost of an output. When costs are not directly
traced to outputs, the Standard states that the preferred method of assigning costs
to outputs is cause-and-effect. When using the cause-and-effect method, the
Standard states that costs are assigned to activities or work elements that
contribute to or support the production of outputs. When it is not economically
feasible to use either direct assignment or cause-and-effect, the Standard states
that costs should be assigned to outputs using cost allocation. When using cost
allocation, the Standard states that costs with similar characteristics should be
allocated to outputs based on a relevant common denominator, such as the
number of employees, the square footage of office space, or the amount of direct
costs.

DoD Financial Regulation. DoD 7000.14-R, “DoD Financial Management
Regulation,” volumes 1 through 15, provide policy, regulations, and procedures to
DoD Components within USD(C/CFO) area of responsibility. Volume 3,
chapter 8, “Standards for Recording and Reviewing Commitments and
Obligations,” November 2000 states that DoD Components responsible for
incurring obligations, with the assistance from supporting accounting offices,
shall review commitment and obligation transactions for accuracy, completeness,
and timeliness three times each fiscal year. Volume 3, chapter 15, “Receipt and
Use of Budgetary Resources,” December 1996 states that an earned
reimbursement is the amount recognized when a performing organization renders
actual or constructive performance on a reimbursable order, which is generally
the point of recognition of an accrued expenditure. The Regulation defines
accrued expenditures as credits entered into budgetary accounts to recognize paid
or unpaid liabilities for services performed, property received, and annuities or
insurance claims for which no current service is required. Volume 11A,
“Reimbursable Operations, Policy and Procedures,” September 1997 provides


                                     5
     guidance on the types of costs that DoD Components should recoup when they
     perform work or sell property. It states that DoD Components should bill
     requesting DoD Components, other Government agencies, and private parties for
     earned reimbursements, including direct and overhead costs. Reimbursements
     from private parties are to include both funded and unfunded costs, and
     DoD Components are required to deposit receipts of unfunded costs into the
     General Fund of the U.S. Treasury as miscellaneous receipts.


Bills to Satellite Exporters
     From FY 1999 through FY 2002, DTRA accounting records showed that the
     Space Directorate expended about $12.2 million for monitoring launches of
     satellites and related items, but DTRA and the Space Directorate did not properly
     bill satellite exporters for monitoring services.

            •   Bills exceeded recorded accrued expenditures by nearly $2.1 million.

            •   Indirect accrued expenditures of more than $900,000 should have been
                allocated to other Space Directorate activities for the period FY 2000
                through FY 2002.

            •   Indirect accrued expenditures did not match supporting documentation
                for the period FY 2000 through FY 2002.

            •   Satellite exporters were undercharged by about $430,000 because
                required fringe benefit rates published by USD(C/CFO) were not used
                to bill satellite exporters.

            •   Travel costs, the only costs billed directly to satellite exporters, did not
                always match supporting documentation.

     The net effect of these improper billings is that the Space Directorate may have
     overcharged satellite exporters nearly $2.6 million.

     Bills Exceeding Adjusted Accrued Expenditures. For the period FY 1999
     through FY 2002, DTRA and the Space Directorate billed nearly $2.1 million
     more to satellite exporters than the accrued expenditures recorded in the DTRA
     accounting system as of January 2004. Specifically, while DTRA and the Space
     Directorate billed satellite exporters $14.2 million from FY 1999 through
     FY 2002, the accrued expenditures in the accounting system only totaled about
     $12.2 million for the same period. Details are in Table 1.




                                           6
                        Table 1. Schedule of Billed and Recorded Accrued Expenditures

                                                             Accrued Expenditures
                                   Amount Billed to          in DTRA Accounting
                 Fiscal Year       Satellite Exporters             System                 Difference

                  FY 1999           $ 1,600,000.02             $ 1,324,628.44           $ 275,371.58

                  FY 2000             3,207,104.97               3,501,752.34            (294,647.37)

                  FY 2001             4,295,765.83               3,292,619.09           1,003,146.74

                  FY 2002             5,121,131.80               4,044,313.25           1,076,818.55

                   Total            $14,224,002.62             $12,163,313.12          $2,060,689.50



           One reason billings did not match accounting records is that DTRA and the Space
           Directorate based billings on obligated funds, rather than on accrued
           expenditures. However, that does not account for the entire difference because as
           of January 2004, DTRA reported $12.8 million in obligated funds for the Space
           Directorate—$1.4 million less than the amount billed. DTRA accounting
           officials did not explain the difference between the billings and the obligations.
           However, Space Directorate officials stated that they believe the billing
           discrepancies were the result of obligated funds that had been adjusted subsequent
           to the billings.

           Indirect Accrued Expenditures. More than $900,000 of indirect accrued
           expenditures should have been allocated to other Space Directorate activities.
           According to Federal Accounting Standards, indirect costs incurred by the Space
           Directorate should be allocated between all of the Directorate’s activities. For the
           period FY 2000 through FY 2002,6 the Space Directorate spent more than
           $9.2 million on indirect costs. Of that amount, the Space Directorate should have
           allocated about $8.3 million to satellite export monitoring, with the remaining
           more than $900,000 allocated to other Space Directorate activities. The
           calculation of the indirect costs that should have been allocated to the satellite
           export monitoring is in Appendix B. The Space Directorate charged all indirect
           accrued expenditures to satellite exporters. No indirect accrued expenditures
           were allocated to the review of applications for space-related export licenses or to
           the Missile Defense Agency for assistance related to a joint U.S.-Russia research
           and development project on observing the earth’s atmosphere and observing
           ballistic missile launches. Categories of indirect accrued expenditures include
           civilian labor and fringe benefits, contracted services, equipment, leases,

6
    The Space Directorate did not provide the FY 1999 automated spreadsheets used to bill satellite exporters
    for direct travel costs and to determine the percentage of indirect costs that should have been allocated to
    each satellite exporter. Therefore, we were unable to evaluate indirect accrued expenditures for FY 1999.



                                                         7
           maintenance and storage, permanent change of station costs, recruitment,
           reimbursements to other Federal agencies, supplies and materials, and travel that
           exceeded the amount of travel expenses billed directly to satellite exporters.
           Appendix C further identifies and discusses the categories of accrued
           expenditures. A final determination cannot be made for the amount of indirect
           costs that the Space Directorate should allocate to satellite export monitoring until
           the Space Directorate and DTRA review their records and reconcile any
           discrepancies.

                   Cost Allocation Rate. The Space Directorate allocated all indirect
           accrued expenditures to the monitoring of satellite exports. However, for
           FY 2000 and FY 2001, we estimate that 91.4 percent should have been allocated
           to that activity, and for FY 2002, 87.9 percent should have been allocated to that
           activity.7 Space Directorate officials stated that they used staff time as the
           common denominator to allocate indirect costs to outputs. The Space Directorate
           recorded staff time of 21,615 staff hours in FY 2000; 21,291 staff hours in
           FY 2001; and 25,434 staff hours in FY 2002, all of which were associated with
           monitoring satellite exports. The denominator, however, excluded the amount of
           time Space Directorate staff spent assisting the Missile Defense Agency and
           reviewing applications for space-related export licenses. In FY 2002, Space
           Directorate staff spent 1,474 hours assisting the Missile Defense Agency.

                  The hours that the Space Directorate spent reviewing applications for
           space-related export licenses can only be estimated because the directorate did not
           have complete records on the amount of time spent reviewing applications. For
           FY 2002, the Space Directorate performed a study on the time required to review
           each application. According to briefing charts that summarized the study, the
           Space Directorate staff took .965 hours to review each application. Also, Space
           Directorate records show that its staff reviewed a total of 6,273 applications from
           FY 2000 through FY 20028—2,104 in FY 2000; 2,084 in FY 2001; and 2,085 in
           FY 2002. By multiplying .965 hours per application by the total number of
           applications, we determined that Space Directorate staff took an estimated
           2,030 hours in FY 2000; 2,011 hours in FY 2001; and 2,012 hours in FY 2002 to
           review the applications.

                   Because both the assistance provided to the Missile Defense Agency and
           the review of applications for export licenses were Space Directorate outputs,
           indirect costs should have been allocated to those activities, as well as to the
           monitoring of space-related exports. If the Space Directorate had included staff
           hours for all outputs in the denominator in FY 2002, the Space Directorate would
           have allocated 5.1 percent of its indirect costs to assistance provided to the
           Missile Defense Agency. Also, the Space Directorate would have allocated an
           estimated 8.6 percent of its indirect costs in FY 2000 to the review of applications
           for space-related export licenses, 8.6 percent in FY 2001, and 7 percent in
           FY 2002. Table 2 details the calculations.

7
    We estimated the allocation percentages by dividing the number of hours spent monitoring satellite
    exports by the total hours spent assisting the Missile Defense Agency, reviewing applications for space-
    related export licenses, and monitoring satellite exports.
8
    Space Directorate records show that 7,398 applications were reviewed between FY 1999 and FY 2002.



                                                       8
             Table 2. Calculation of Allocation Rate for Satellite Export Monitoring

                                                      FY 2000         FY 2001          FY 2002
Recorded Hours to Monitor Satellite Exports            21,615          21,291           25,434

PLUS: Hours to Assist the Missile Defense
Agency                                                                                   1,474

PLUS: Hours to Review Export License
Applications                                             2,030          2,011            2,012

 Total Hours                                           23,645          23,302           28,920

Hours to Monitor Satellite Exports Divided By
Total Hours                                             91.4%          91.4%            87.9%

Hours to Assist the Missile Defense Agency
Divided by Total Hours                                   0.0%           0.0%             5.1%

Hours to Review Export License Applications
Divided by Total Hours                                   8.6%           8.6%             7.0%



  Support for Indirect Accrued Expenditures. Accounting records did not
  always support recorded indirect accrued expenditures. Errors included
  differences of more than $645,000 between accrued expenditures and obligations
  on prior year accounts and differences of $159,500 between accrued expenditures
  and obligations with supporting documents for office space lease. While few of
  the prior year accounts had differences between recorded accrued expenditures
  and obligations, the differences identified were significant. Of the $645,000 in
  differences, $606,000 occurred on two accounts—contracted services and
  reimbursements to other Federal agencies. For the prior year accounts with
  differences between accrued expenditures and obligations, DTRA and the Space
  Directorate need to determine the validity of the obligation amount that exceeds
  accrued expenditures. Any excess funds should be deobligated and returned to
  the satellite exporters. The tables in Appendix C provide differences between
  accrued expenditures and amounts billed for each account for the period FY 1999
  through FY 2002.

          Contracted Services. While obligated funds for contracted services
  totaled almost $988,000 between FY 1999 and FY 2002, accrued expenditures
  totaled $748,000—a difference of more than $239,000. The contract with the
  most significant difference was contract DTRA01-01-C-0044 that was to provide
  information technology support to all DTRA components. While DTRA
  obligated about $197,000 for that contract in FY 2001, no accrued expenditures
  (or disbursements) were recorded against the contract as of January 2004.



                                              9
           As of April 2004, officials in the Resource Management Directorate, DTRA did
           not provide an explanation for why there were no accrued expenditures for the
           contract.

                   Reimbursements to Other Federal Agencies. While obligated funds for
           reimbursements to other Federal agencies totaled almost $1.7 million between
           FY 1999 and FY 2002, accrued expenditures totaled more than $1.3 million—a
           difference of about $367,000. Space Directorate officials stated that the account
           was used to charge for military personnel assigned to the directorate. The most
           significant difference, almost $334,000, occurred in FY 2001 when DTRA
           recorded obligations totaling about $334,000 for reimbursements to other Federal
           agencies; but as of January 2003, DTRA had not recorded any accrued
           expenditures or disbursements for that account. According to DTRA manning
           documents, in FY 2001, three military personnel were assigned to the Space
           Directorate. According to Space Directorate officials, two Air Force majors
           supported the satellite export monitoring function. The third position, an Air
           Force sergeant, performed work associated with export licenses, and that position
           was not charged to satellite exporters. DTRA should have billed the Space
           Directorate for the two Air Force majors based on composite rates posted by
           USD(C/CFO). For FY 2001, the rate for each major was almost $110,000.
           Therefore, for FY 2001, DTRA should have billed the Space Directorate about
           $220,000 for military personnel.

                   Office Lease. Accrued expenditures for office space leased for the Space
           Directorate did not match the lease documents. The lease documents show that
           DTRA should have billed an additional $159,500 to the Space Directorate for
           office space from FY 2000 through FY 2002. In FY 2000, DTRA billed lease
           costs of about $148,900 to the Space Directorate, while lease documents
           supported costs of about $146,700—an overbilling of $2,200. In FY 2001,
           DTRA billed lease costs of about $156,600 to the Space Directorate, while lease
           documents supported about $147,900—an underbilling of $8,700. For FY 2002,
           DTRA did not bill lease costs to the Space Directorate although the lease
           documents support costs of about $170,400 for office space. DTRA accounting
           officials agreed that lease costs should have been charged to Space Directorate
           accounts in FY 2002 and stated that they would obtain the documentation needed
           in order to bill the Space Directorate.
           Civilian Fringe Benefits. The Space Directorate undercharged for civilian fringe
           benefits by over $430,000 from FY 2000 through FY 2002 because it did not use
           the fringe benefit rates determined by USD(C/CFO) when billing satellite
           exporters. In addition, the Space Directorate undercharged up to $13,500 for
           civilian fringe benefits in FY 1999. That figure is estimated because the Space
           Directorate did not provide data on how it allocated accrued expenditures
           between the Space Directorate activities for FY 1999.9 Also, the Space
           Directorate should have deposited approximately $454,000 of fringe benefits that
           it should have collected for FY 2000 through FY 2002 into the U.S. Treasury as
           miscellaneous receipts. The Space Directorate billed fringe benefits based on the

9
    We estimated the amount the Space Directorate undercharged in FY 1999 by multiplying accrued
    expenditures for labor by the USD(C/CFO) fringe benefit rate and subtracting accrued expenditures for
    fringe benefits.



                                                     10
     amount of fringe benefits that were charged to Space Directorate accounts, which
     totaled more than $1.3 million from FY 1999 through FY 2002. Those benefits
     included health and life insurance, retirement plan contributions, social security,
     and Medicare. According to the DoD Financial Management Regulation, civilian
     fringe benefits should be reimbursed at rates determined annually by
     USD(C/CFO). For most Defense agencies, including DTRA, the fringe benefit
     rates were 41 percent of labor costs in FY 1999, 34.7 percent in FY 2000,
     36.7 percent in FY 2001, and 33.5 percent in FY 2002. Those rates include
     unfunded costs for civilian retirement, post retirement health benefits, and post
     retirement life insurance. The unfunded portion of fringe benefit rates was
     9.6 percent of labor costs in FY 2000, 9.6 percent in FY 2001, and 8.4 percent in
     FY 2002. DoD Components are required to deposit reimbursed amounts into the
     U.S. Treasury as miscellaneous receipts. The calculation of additional fringe
     benefits that the Space Directorate should have charged to satellite exporters and
     the unfunded fringe benefits for FY 2000 through FY 2002 are in Table 3.



          Table 3. Calculation of Additional Fringe Benefits and Unfunded Fringe Benefits

                                   FY 2000           FY 2001          FY 2002               Total

Labor                            $1,361,568.67     $1,919,479.87    $2,248,576.40    $5,529,624.94
Allocation Rate (Table 2)               91.4%             91.4%            87.9%

Labor Multiplied By Allocation
Rate                             $1,244,473.76     $1,754,404.60    $1,976,498.66    $4,975,377.02

DoD Fringe Benefit Rate                  34.7%            36.7%            33.5%

Allocated Labor Multiplied by
Fringe Benefit Rate                $431,832.40      $643,866.49       $662,127.05    $1,737,825.93

Less: Fringe Benefits in
Accounting Records                  305,197.91       455,561.42        546,841.89     1,307,601.22

Additional Fringe Benefits         $126,634.49      $188,305.07       $115,285.16      $430,224.71

Unfunded Fringe Benefit Rate              9.6%             9.6%             8.4%

Allocated Labor Multiplied by
Unfunded Fringe Benefit Rate       $119,469.48      $168,422.84       $166,025.89      $453,918.21




                                             11
            Direct Costs Billed to Exporters. For FY 2000 through FY 2002,10 the Space
            Directorate did not accurately bill travel costs, which totaled about $1.6 million.
            Those costs, which the Space Directorate tracked on automated spreadsheets,
            were the only direct costs billed to satellite exporters. We compared 102 travel
            vouchers with entries in the automated spreadsheets and identified discrepancies
            of over $16,800 in overcharges and about $150 in undercharges to exporters. In
            addition, procedures were not in place to allocate travel costs between satellite
            exporters. Also, between FY 1999 and FY 2002, the DTRA accounting system
            reported about $1.7 million of accrued expenditures for travel, which was about
            $63,000 more than the Space Directorate had recorded in its automated
            spreadsheets for billing satellite exporters and the Missile Defense Agency.

                    Travel Voucher Support. For FY 2000 through FY 2002, travel
            vouchers did not fully support the travel costs billed to satellite exporters. For the
            three largest exporters, Space Directorate spreadsheets contained 526 entries for
            the period of FY 2000 through FY 2002. Of the 185 entries we judgmentally
            selected, the Space Directorate did not have 83 travel vouchers available.11 Of
            the remaining 102 entries, the recorded costs for 7 entries did not agree with the
            costs shown on the travel vouchers by at least $25. Discrepancies of over
            $16,800 exceeded the amounts listed on the paid travel vouchers, and
            discrepancies of about $150 were for less than the amounts listed on the paid
            travel vouchers. The overcharges ranged from nearly $96 to $7,749 and consisted
            of duplicate travel charges and charges that did not match travel vouchers. The
            undercharge of about $150 consisted of a charge that did not match the travel
            voucher. The overcharges and undercharges are detailed in Appendix D.

                     Allocation of Travel Expenses. The Space Directorate did not have
            procedures for allocating travel costs between satellite exporters when single trips
            involved multiple exporters. Instead of prorating travel expenses among the
            exporters on an equitable basis, the Space Directorate arbitrarily chose the
            company that should be billed. For example, a November 2001 trip involved
            three exporters. Costs for the train, taxi fares, and hotel taxes were assigned to
            one exporter. Hotel costs and per diem for three and a half days were split
            between that exporter and a second exporter. The third exporter was charged for
            only a half-day’s per diem. Because the Space Directorate was providing
            monitoring support to all three exporters, the costs of the train and taxi fares
            should have been evenly divided between them. The allocation of hotel, hotel
            tax, and per diem costs should have been based on the number of monitoring days
            required by each exporter. The allocation made by the Space Directorate resulted
            in the first exporter being overcharged by about $408, the second exporter being
            undercharged by about $329, and the third exporter being undercharged by
            about $86. To ensure that satellite exporters are charged for their fair share of


10
      For FY 1999, the Space Directorate did not have supporting documentation available for travel costs
     billed to satellite exporters.
11
  Between the issuance of the draft report and the final report, the Space Directorate provided 42 of the
 missing travel vouchers. We did not review the missing travel vouchers for accuracy. Space Directorate
 officials stated that they did not have the remaining 41 travel vouchers because Space Directorate
 employees did not always provide copies of the paid travel vouchers to the person who maintained the
 spreadsheet.



                                                       12
     costs, the Space Directorate needs to develop a reasonable basis for allocating
     costs when travel involves multiple satellite exporters.

             Differences Between the Accounting System and Spreadsheets. While
     the DTRA accounting system reported about $1.7 million of accrued expenditures
     for travel from FY 2000 through FY 2002, the automated spreadsheets maintained
     by the Space Directorate totaled only about $1.6 million in travel costs. The
     difference of almost $63,000 may be indicative of the errors in the accounting
     system and the spreadsheets. Although the entries on the spreadsheets should
     have agreed with the entries in the accounting system, there were differences of at
     least $25 on 9 of the 17 entries we selected for comparison. The differences
     between the spreadsheets and the accounting system for the nine entries are
     detailed in Appendix E. For example, DTRA recorded travel expenses of $110 in
     the accounting system for a FY 2001 trip, while the Space Directorate recorded
     travel costs of $4,860 on its automated spreadsheet for the same trip. In a second
     instance, DTRA reported accrued expenditures for travel based on the amount
     shown on the travel authorization; however, DTRA did not remove the accrued
     expenditure from its accounting system when the trip was canceled. Because of
     the differences between amounts reported in the accounting system and the
     automated spreadsheets, DTRA and the Space Directorate need to thoroughly
     review the entries in the accounting system and automated spreadsheets before
     the proper amount of travel expenses associated with monitoring satellite
     launches can be determined.

             Management Action Taken. In FY 2004, the Space Directorate
     implemented additional procedures for tracking travel expenses and travel time
     related to satellite monitoring. Specifically, the Space Directorate requires its
     Operations Division to obtain a copy of a paid travel voucher from each traveler
     within 30 days of a travel claim and compare the travel costs recorded in the
     automated spreadsheets with summary amounts. In addition, the Chief,
     Operations Division is required to conduct periodic reviews of the Space
     Directorate’s spreadsheets to ensure their accuracy.


Procedures for Billing Satellite Exporters
     The improper billings occurred because the Space Directorate did not have
     adequate procedures for adjusting estimates to actual costs, because DoD made a
     policy decision to bill satellite exporters for the cost of reviewing applications for
     spacecraft systems and associated equipment, and because the Space Directorate
     did not evaluate or reconcile accounting information.

     Adjusting Estimates to Actual Costs. The Space Directorate did not have
     adequate procedures for adjusting estimates to actual expenditures at the end of
     each fiscal year. There may have been errors with the query used by DTRA
     accounting staff to determine year-end obligations. DTRA and the Space
     Directorate used obligations as a basis for year-end billings to satellite exporters
     instead of using accrued expenditures.




                                           13
        Obtaining Obligation Amounts From Accounting System. The queries
used by DTRA accounting staff to determine year-end obligations may have
contained errors. Although DTRA and the Space Directorate billed $14.2 million
between FY 1999 and FY 2002, data provided to us by DTRA accounting staff
showed obligations totaling more than $12.8 million for that period—a difference
of $1.4 million. Although the DTRA accounting office did not provide requested
details of the queries, a Space Directorate official stated that he believed that the
queries only provided information on current year obligations. Thus, the queries
excluded changes made to prior year obligations, such as the deobligation of
unused funds, which would account for the difference between the billing
amounts and obligations reported to us in January 2004.

        Use of Year-End Obligations. Although the DoD Financial Management
Regulation requires DoD Components to use accrued expenditures to bill for their
services, DTRA and the Space Directorate used the amount of funds obligated as
a basis for year-end adjustments. Space Directorate officials stated that they
based year-end billings on recorded obligations because the Space Directorate
expected to incur more costs on the outstanding obligations. The officials stated
that had they used accrued expenditures, they would have had to deobligate funds
in order to refund satellite exporters. As such, they would have needed to obtain
alternative funding sources to pay those obligations. Space Directorate officials
also stated that they expected that most obligations would match accrued
expenditures by the time bills were sent to exporters in January, following the
close of the fiscal year. However, they also stated that the Space Directorate was
not provided sufficient information to compare obligations and accrued
expenditures to close out the fiscal year.

Assigning Expenses to Space Directorate Activities. According to the Director,
Space Directorate, DoD made a policy decision, within its management authority,
to include the costs of reviewing applications for space-related export licenses as
a general overhead cost. He provided briefing charts used by the then-Deputy
Under Secretary of Defense for Technology Security Policy to brief the Deputy
Secretary of Defense in mid-1999. Those charts indicate that export license
reviews and safeguards would be consolidated into one DTRA office that would
provide “cradle to grave” support. The Director, Space Directorate also stated
that the cost allocation process was extensively discussed within DTRA and
included conversations with a staff member from the General Accounting Office
who reviewed the monitoring program as it was being stood up and briefings to
the Director and Deputy Director, DTRA. The Director, Space Directorate
provided charts of a December 1999 briefing to the Director, DTRA. The charts
state that the monitoring staff would review license applications but does not
identify cost allocation processes. In conclusion, the Director, Space Directorate
stated that he was under the impression that the Office of the Under Secretary of
Defense for Policy agreed that the decision to include the costs of reviewing
applications for space-related export licenses as a general overhead cost was
within management’s discretionary authority.

While the cost of reviewing applications for space-related export licenses may be
part of the Space Directorate’s support, the costs are direct costs, not general
overhead costs. Public Law 105-261 specifically states that DoD will be
reimbursed for the cost of providing monitoring services when a license for the


                                     14
     export of a satellite or related items for launch in a foreign country has been
     approved. Monitoring begins once an export license is granted. In addition, one
     DTSA function is to review defense-related applications for export licenses, and
     DTSA receives appropriated funds to perform that function. By charging satellite
     exporters to review their applications, DTSA is treating satellite exporters
     differently than other exporters. Additionally, Space Directorate officials stated
     that satellite exporters pay a registration fee to the Department of State for the
     U.S. Government to review their export license applications.

              Evaluation of Accounting Information. DTRA and the Space
     Directorate did not have adequate procedures to ensure that the records used to
     bill satellite exporters were accurate. According to Space Directorate officials,
     there were no procedures for the Space Directorate to obtain and evaluate the
     reasonableness of account balances reported in the DTRA accounting system.
     Had the Space Directorate periodically received the account balances, it could
     have easily identified that significant costs, such as office leases and
     reimbursements to other Federal agencies, had not been assigned to the
     directorate. Also, there were no procedures for the Space Directorate to reconcile
     travel expenses between amounts recorded in the DTRA accounting system and
     amounts the directorate reported in its automated spreadsheets. In addition, the
     Space Directorate did not have written instructions on how to allocate travel
     expenses when a single trip involved multiple exporters.


Effect of Improper Billings
     Based on the limited information we obtained and reviewed, we believe that the
     Space Directorate may have overcharged satellite exporters nearly $2.6 million.
     That amount includes nearly $2.1 million that exceeded accrued expenditures
     reported in the DTRA accounting system, over $900,000 that the Space
     Directorate should have allocated for the review of applications for space-related
     export licenses and for the assistance provided to the Missile Defense Agency,
     and over $430,000 that the Space Directorate undercharged for fringe benefits. In
     addition, the Space Directorate overcharged satellite exporters by over $16,800
     and undercharged about $150 for direct travel costs; however, because DTRA
     needs to ensure that it has properly accounted for all costs chargeable to the Space
     Directorate and the Space Directorate needs to further reconcile travel costs
     included on its automated spreadsheets with the accounting records and travel
     vouchers, the final amounts cannot be accurately determined.


Conclusion
     In IG DoD Report No. D-2003-070, we reported that DTSA had established an
     effective monitoring program for activities related to space launches.
     Specifically, we reported that DTSA had developed policies and procedures for
     executing its monitoring program, employed adequate technology safeguard
     personnel, developed a comprehensive training program, and maintained
     documentation of its monitoring efforts. However, financial management of the


                                         15
    monitoring program needs to be improved. The Space Directorate needs to
    develop procedures that ensure the accuracy of accounting records and queries
    used to determine the amount of billings and to utilize fringe benefit rates
    published by USD(C/CFO). Those actions will help ensure the preparation of
    accurate billings to satellite exporters.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Director, Defense Threat Reduction Agency:

          a. Review all prior year unliquidated obligations exceeding accrued
    expenditures in accounts affecting the Space Directorate, Defense
    Technology Security Administration and determine if additional accrued
    expenditures will be charged against the obligations. For any obligation
    where additional accrued expenditures are expected, the Director, Defense
    Threat Reduction Agency should obtain the needed support. If no additional
    accrued expenditures are expected, the Director, Defense Threat Reduction
    Agency should deobligate the excess funds.

            b. Review accounting records related to office lease for FY 2002 and
    contracted services and reimbursements to other Federal agencies for
    FY 2001 to determine whether the expenses were included in other accounts
    or excluded from the accounting system and make any needed adjustments
    in the accounting system.

          c. Coordinate with the Director, Space Directorate, in calculating
    DoD costs chargeable to satellite exporters for the period FY 1999 through
    FY 2002. Compare the results against the amounts previously billed and
    prepare any needed revisions to billings for those years.

           d. Deposit unfunded civilian fringe benefits (approximately $454,000
    for FY 2000 through FY 2002) in the U.S. Treasury as a miscellaneous
    receipt.

    Management Comments. The Director, Defense Threat Reduction Agency
    concurred, stating that the agency is working with DTSA to determine final costs
    for each fiscal year. The Director expects all actions to be complete by
    September 30, 2004.

    2. We recommend that the Director, Defense Technology Security
    Administration:

           a. Establish procedures to:

                  1. Periodically obtain and review general ledger account
    balances affecting billings to satellite exporters.




                                       16
Management Comments. The Deputy Under Secretary of Defense (Technology
Security Policy and Counter Proliferation), who is also the Director, DTSA,
concurred. The Deputy Under Secretary stated that beginning in January 2003,
DTSA routinely obtained general ledger account balances from the Defense
Finance and Accounting Service and reviewed the balances for accuracy. In
addition, the Deputy Under Secretary estimated that by July 30, 2004, DTSA
would amend its service agreement with the Defense Finance and Accounting
Service to require reviews of general ledger account balances at least twice each
year.

               2. Use expenses recorded in the accounting system as a basis
for determining travel expenses for each satellite exporter and to allocate
travel costs between satellite exporters when the purpose of the travel
involves more than one exporter.

Management Comments. The Deputy Under Secretary of Defense (Technology
Security Policy and Counter Proliferation) concurred. The Deputy Under
Secretary stated that beginning in January 2003, DTSA has used the Defense
Finance and Accounting Service accounting system to reconcile travel expenses.
The Deputy Under Secretary stated that following a review by the Defense
Finance and Accounting Service and a certified public accountant, DTSA would
incorporate procedures for allocating travel costs into a standard operating
procedure. The Deputy Under Secretary expected the procedure to be complete
by July 30, 2004.

               3. Allocate indirect costs to all Space Directorate functions by
including staff time for each of the directorate’s functions in the cost
allocation process.

Management Comments. The Deputy Under Secretary of Defense (Technology
Security Policy and Counter Proliferation) concurred, stating that on April 2,
2004, DTSA reassigned the technical review of space-related export license
applications from the Space Directorate to the Technology Directorate, DTSA.
The Deputy Under Secretary stated that by removing the licensing function from
the Space Directorate’s mission, the monitoring function would be the Space
Directorate’s only function for allocating costs.
Audit Response. The comments are partially responsive. Although the Deputy
Under Secretary took action to remove the licensing function from the Space
Directorate’s mission, the Deputy Under Secretary did not address how costs
associated with providing assistance to the Missile Defense Agency would be
allocated. The Space Directorate still needs to allocate costs between the
monitoring function and assistance provided to the Missile Defense Agency. In
response to the final report, we request that the Deputy Under Secretary address
how costs associated with providing assistance to the Missile Defense Agency
will be allocated.




                                    17
4. Obtain assistance from accounting staff at the Defense Finance and
Accounting Service in developing cost allocation methods. Those procedures
should also require that the accounting staff be notified of changes in Space
Directorate activities so the accounting staff can ensure that allocation
methods are current.

Management Comments. The Deputy Under Secretary of Defense (Technology
Security Policy and Counter Proliferation) concurred. The Deputy Under
Secretary stated that the cost allocation issue was eliminated by removing the
licensing function from the Space Directorate’s mission. She stated that DTSA
would revise its agreement with the Defense Finance and Accounting Service to
include a requirement that DTSA notify the Defense Finance and Accounting
Service of any changes in the Space Directorate mission.

Audit Response. The comments are partially responsive. Although the Deputy
Under Secretary stated that removing the export licensing function from the Space
Directorate’s mission eliminated the cost allocation issue, she did not address the
allocation of indirect costs between the monitoring function and assistance
provided to the Missile Defense Agency. Also, the Deputy Under Secretary’s
response did not address procedures for allocating costs to all Space Directorate
functions. In response to the final report, we request that the Deputy Under
Secretary identify procedures that will be developed for allocating costs to all
Space Directorate functions.

       b. Compare travel expense entries on the Space Directorate
spreadsheets for FY 1999 through FY 2002 with supporting documentation
to ensure the entries are accurate. In addition, the travel expense entries for
FY 1999 through FY 2002 should be reconciled against official accounting
records.

Management Comments. The Deputy Under Secretary of Defense (Technology
Security Policy and Counter Proliferation) concurred. The Deputy Under
Secretary stated that DTSA plans to issue a contract for a certified public
accountant to perform a reconciliation of Space Directorate accounting records.
The review would cover FY 1999 through FY 2002 and include all travel
expenses recorded in the general ledger accounts and on the DTSA spreadsheets.
The Deputy Under Secretary expects the review to be completed by July 30,
2004.

      c. Coordinate with the Director, Resource Management, Defense
Threat Reduction Agency in calculating DoD costs chargeable to satellite
exporters for the period FY 1999 through FY 2002.

Management Comments. The Deputy Under Secretary of Defense (Technology
Security Policy and Counter Proliferation) concurred. The Deputy Under
Secretary stated that she will coordinate the results of the certified public
accountant’s reconciliation with DTRA by September 3, 2004.




                                    18
Appendix A. Scope and Methodology
   For FY 1999 through FY 2002, we reviewed the Space Directorate costs for
   licensing satellite exports and monitoring satellite launches in foreign countries.
   The review included provisions of public laws, DoD regulations and directives,
   OMB circulars, and Federal Accounting Standards. The documentation reviewed
   covered July 1993 through March 2004.

   We conducted interviews with officials from the Office of the Under Secretary of
   Defense for Policy; USD(C/CFO); the Resource Management Directorate,
   DTRA; and the Space Directorate. We also held discussions with representatives
   from Lockheed Martin Corporation and The Boeing Company.

   We evaluated financial management within the Space Directorate over the
   satellite launch monitoring program. Specifically, we identified the Space
   Directorate costs for reviewing applications of space-related export licenses and
   for monitoring satellite launches. We assessed satellite launch monitoring costs
   to determine if they were accurate, supported, and directly related to the
   monitoring mission. The review included examinations of the Space Directorate
   and DTRA accounting records including budgets, financial reports, travel
   vouchers, personnel records, and invoices. We also evaluated the Space
   Directorate and DTRA cost accounting methodologies and compared those
   methodologies with standards issued in the Statement of Federal Financial
   Accounting Standards No. 4 and the DoD Financial Management Regulation.

   We performed the review from December 2003 through April 2004 in accordance
   with generally accepted government auditing standards. To determine the
   accuracy and support for direct expenses reported by the Space Directorate, we
   judgmentally selected transactions from automated spreadsheets maintained by
   the Directorate. To determine the accuracy and support for indirect expenses
   reported by DTRA, we judgmentally selected transactions from automated
   spreadsheets that DTRA officials obtained by querying a database of transactions
   derived from the agency’s accounting system.

   Scope Limitation. This review contained scope limitations that materially
   impacted the results of this review.

          •   DTSA did not finalize its accounting for FY 2003 costs until
              April 2004. Therefore, the review only covers FY 1999 through
              FY 2002.

          •   The Space Directorate did not provide the FY 1999 automated
              spreadsheet used to bill satellite exporters for direct travel costs and to
              determine the percentage of indirect costs that should have been
              allocated to each satellite exporter.

          •   DTRA did not provide the details of the accounting system query that
              was used to provide us with the accounting entries for FY 1999
              through FY 2002.



                                        19
           •   DTRA was unable to provide supporting documentation for requested
               accounting entries related to labor, reimbursements to other Federal
               agencies, and permanent change of station costs.

           •   We did not verify that the Space Directorate staff took .965 hours to
               review each application for space-related export licenses, as reported
               in the briefing charts for the FY 2002 Space Directorate study.

           •   We did not review the DTSA management control program.

    Use of Computer-Processed Data. DTRA maintained Space Directorate
    accounts from FY 1999 through the beginning of FY 2003 on the agency’s
    Centralized Accounting and Financial Resource Management System. According
    to officials from the Resource Management Directorate, DTRA, data provided for
    our review was obtained by querying a database of data transferred from the
    DTRA accounting system. We did not evaluate the general and application
    controls over the accounting system, the database, or the queries. An evaluation
    of the controls over the accounting system and database was outside the scope of
    our review. We did request details on the queries used to produce the accounting
    entries given to us, as well as the queries used each year to bill satellite exporters,
    but the Resource Management Directorate did not provide that information.
    Although some accounting entries were compared with supporting
    documentation, and we noted that some expenses were either missing from the
    system or misclassified, we generally relied on data from the queries. Inadequate
    controls over the accounting system, transfers to the database, or query
    development could affect the amounts included in this report.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.

Prior Coverage
    During the last 5 years, the IG DoD has issued one report, IG DoD Report
    No. D-2003-070, “DoD Involvement in Export Enforcement Activities,”
    March 28, 2003, related to the satellite monitoring program.




                                          20
   Appendix B. Allocation of Indirect Costs
           Based on the allocation rates and the amount of indirect costs incurred, the Space
           Directorate should have allocated more than $8.3 million of indirect costs to
           satellite export monitoring (Table B-2). Between FY 2000 and FY 2002, DTRA
           accounting records showed that the Space Directorate incurred about
           $10.8 million of accrued expenditures. Those expenditures included almost
           $1.6 million of travel costs that the Space Directorate charged directly to satellite
           exporters and almost $49,000 charged to the Missile Defense Agency. A
           comparison of the direct charges against travel records maintained by the Space
           Directorate found that the charges were not always correct. Subtracting the
           adjusted travel costs from the accrued expenditures left more than $9.2 million of
           indirect accrued expenditures, including nearly $3.1 million in FY 2000, over
           $2.8 million in FY 2001, and over $3.3 million FY 2002 (Table B-1).




                          Table B-1. Schedule of Allocable Accrued Expenditures

                                     FY 2000           FY 2001            FY 2002          Total
Accrued Expenditures
 (Tables C-3, C-4, C-5)           $3,501,752.34     $3,292,619.09      $4,044,313.25   $10,838,684.68

LESS: Direct Travel Expenses:
Direct Charges to Satellite
Exporters                         $ 452,297.23      $ 472,807.09        $ 656,801.63   $ 1,581,905.95
PLUS: Undercharges                        0.00              0.00              149.74           149.74
LESS: Overcharges                     6,067.34              0.00           10,744.57        16,811.91
   Net Direct Travel for
   Satellite Exporters            $ 446,229.89      $ 472,807.09        $ 646,206.80   $ 1,565,243.78

PLUS: Travel Charged Directly
to Missile Defense Agency                                                  48,854.26        48,854.26

 Net Direct Travel Expenses       $ 446,229.89      $ 472,807.09       $ 695,061.06    $ 1,614,098.04

  Accrued Expenditures Less
  Net Direct Travel Expenses      $3,055,522.45     $2,819,812.00      $3,349,252.19   $ 9,224,586.64



           Multiplying the indirect accrued expenditures by the percentage of indirect
           accrued expenditures that should be allocated to the monitoring of space-related
           exports provides the indirect cost that the Space Directorate should charge to that
           activity. In Table B-2, we calculated 91.4 percent of indirect accrued
           expenditures for FY 2000, 91.4 percent for FY 2001, and 87.9 percent for
           FY 2002 that should have been allocated to the monitoring of space-related
           exports. In total, more than $8.3 million of indirect accrued expenditures should
           have been allocated to the monitoring function, including about $2.8 million in


                                                  21
FY 2000, about $2.6 million in FY 2001, and over $2.9 million in FY 2002. The
difference between the $9.2 million of indirect accrued expenditures and the
$8.3 million that was allocated to satellite exporters shows that over $900,000
should have been allocated to other activities of the Space Directorate.



                  Table B-2. Allocation of Indirect Accrued Expenditures to the
                                 Monitoring of Satellite Exports


                                                            Indirect Accrued      Indirect Accrued
                    Allocable Indirect                        Expenditures          Expenditures
                        Accrued               Allocation      Allocated to          Allocated to
    Fiscal Year       Expenditures            Percentage   Satellite Exporters     Other Activities

     FY 2000          $3,055,522.45             91.4%        $2,792,747.52          $262,774.93

     FY 2001          $2,819,812.00             91.4%        $2,577,308.17          $242,503.83

     FY 2002          $3,349,252.19             87.9%        $2,943,992.68          $405,259.51

       Total          $9,224,586.64                          $8,314,048.36          $910,538.28




                                         22
Appendix C. Space Directorate Costs
   DTRA accounting records support about $12.8 million of funded obligations and
   $12.2 million of accrued expenditures for the Space Directorate as of
   January 2004. Most of the difference of more than $645,000 occurred in two
   accounts: contracted services and reimbursements to other Federal agencies.
   While DTRA and the Space Directorate need to take prompt action to determine
   whether the obligations or accrued expenditures for those two accounts need to be
   adjusted, they also need to determine why discrepancies still exist in the other
   accounts with differences. Those accounts include supplies, permanent change of
   station, and travel. Table C-1 provides the costs for each account for the entire
   period. Table C-2 through Table C-5 provide the costs for each fiscal year. A
   description of each account is provided after Table C-5.




                Table C-1. Comparison of Obligations and Accrued Expenditures
                           for FY 1999 Through FY 2002

                                                          Accrued
             Account Type             Obligations       Expenditures       Difference
      Labor                         $ 5,599,190.46     $ 5,599,190.46            0.00
      Awards                            119,241.50         119,241.50            0.00
      Benefits                        1,322,620.53       1,322,620.53            0.00
      Recruitment                        15,000.00          15,000.00            0.00
      Office Lease                      344,731.25         344,731.25            0.00
      Car Lease                           1,250.00           1,250.00            0.00
      Maintenance and Storage             6,678.12           6,678.12            0.00
      Contracted Services               987,756.26         748,443.18     $239,313.08
      Reimbursements to Other
       Federal Agencies               1,671,583.76       1,304,297.43      367,286.33
      Equipment                         376,558.68         376,558.68            0.00
      Supplies                          144,571.43         133,548.37       11,023.06
      Permanent Change of
       Station                         444,371.77          440,074.11           4,297.66
      PCS-Shipment of Household
       Goods                             58,369.96          58,369.96            0.00
      Travel                          1,716,811.78       1,693,309.53       23,502.25

        Total Obligations          $12,808,735.50      $12,163,313.12     $645,422.38




                                       23
    Table C-2. Comparison of Obligations and Accrued Expenditures for FY 1999

                                                       Accrued
        Account Type                Obligations      Expenditures     Difference
Labor                             $ 69,565.52        $ 69,565.52            0.00
Awards                                    0.00              0.00            0.00
Benefits                            15,019.31          15,019.31            0.00
Recruitment                               0.00              0.00            0.00
Office Lease                        39,331.25          39,331.25            0.00
Car Lease                            1,250.00           1,250.00            0.00
Maintenance and Storage              3,145.00           3,145.00            0.00
Contracted Services                325,507.40         325,507.40            0.00
Reimbursements to Other
 Federal Agencies                  536,755.00          511,410.20    $25,344.80
Equipment                          241,006.22          241,006.22          0.00
Supplies                             5,909.61            5,909.61          0.00
Permanent Change of
 Station                              83,945.95         83,945.95          0.00
PCS-Shipment of Household
 Goods                                 7,989.58          7,989.58          0.00
Travel                                21,424.88         20,548.40        876.48

 Total Obligations              $1,350,849.72       $1,324,628.44    $26,221.28




                                 24
   Table C-3. Comparison of Obligations and Accrued Expenditures for FY 2000

                                                   Accrued
      Account Type            Obligations       Expenditures        Difference
Labor                       $1,361,568.67       $1,361,568.67             0.00
Awards                          21,893.50           21,893.50             0.00
Benefits                       305,197.91          305,197.91             0.00
Recruitment                          0.00                0.00             0.00
Office Lease                   148,850.00          148,850.00             0.00
Car Lease                            0.00                0.00             0.00
Maintenance and Storage          3,533.12            3,533.12             0.00
Contracted Services            233,438.90          233,438.90             0.00
Reimbursements to Other
  Federal Agencies             472,910.00          472,910.00            0.00
Equipment                      118,923.34          118,923.34            0.00
Supplies                       100,257.91          100,257.91            0.00
Permanent Change of
 Station                       307,499.24          303,201.58       $4,297.66
PCS-Shipment of Household
 Goods                          50,380.38           50,380.38            0.00
Travel                         386,597.03          381,597.03        5,000.00

 Total Obligations          $3,511,050.00       $3,501,752.34       $9,297.66




                                25
   Table C-4. Comparison of Obligations and Accrued Expenditures for FY 2001

                                                  Accrued
      Account Type           Obligations        Expenditures       Difference
Labor                       $1,919,479.87      $1,919,479.87             0.00
Awards                          47,375.00          47,375.00             0.00
Benefits                       455,561.42         455,561.42             0.00
Recruitment                          0.00               0.00             0.00
Office Lease                   156,550.00         156,550.00             0.00
Car Lease                            0.00               0.00             0.00
Maintenance and Storage              0.00               0.00             0.00
Contracted Services            308,794.68         111,895.00      $196,899.68
Reimbursements to Other
 Federal Agencies              333,566.00               0.00       333,566.00
Equipment                       16,629.12          16,629.12             0.00
Supplies                        18,403.91          18,403.91             0.00
Permanent Change of
 Station                        43,918.66          43,918.66             0.00
PCS-Shipment of Household
 Goods                               0.00               0.00             0.00
Travel                         533,159.61         522,806.11        10,353.50

 Total Obligations          $3,833,438.27      $3,292,619.09      $540,819.18




                                 26
      Table C-5. Comparison of Obligations and Accrued Expenditures for FY 2002

                                                     Accrued
         Account Type           Obligations        Expenditures        Difference
   Labor                       $2,248,576.40      $2,248,576.40              0.00
   Awards                          49,973.00          49,973.00              0.00
   Benefits                       546,841.89         546,841.89              0.00
   Recruitment                     15,000.00          15,000.00              0.00
   Office Lease                         0.00               0.00              0.00
   Car Lease                            0.00               0.00              0.00
   Maintenance and Storage              0.00               0.00              0.00
   Contracted Services            120,015.28          77,601.88       $42,413.40
   Reimbursements to Other
    Federal Agencies              328,352.76         319,977.23         8,375.53
   Equipment                            0.00               0.00             0.00
   Supplies                        20,000.00           8,976.94        11,023.06
   Permanent Change of
    Station                         9,007.92           9,007.92             0.00
   PCS-Shipment of Household
    Goods                               0.00               0.00             0.00
   Travel                         775,630.26         768,357.99         7,272.27

    Total Obligations          $4,113,397.51      $4,044,313.25       $69,084.26



The following describes the costs included in each account.

Labor. Space Directorate officials stated that labor included the salaries of
civilian employees assigned to the directorate and, until the Space Directorate
separated from DTRA in 2003, included one GS-12 position from the Resource
Management Directorate, DTRA. According to a memorandum from an April 6,
2000, meeting, Space Directorate and DTRA Resource Management officials
determined that it would not be cost effective to allocate overhead costs and,
therefore, determined that charging for one GS-12 position would be an
appropriate substitute. From FY 1999 through FY 2002, the Space Directorate
averaged 22 civilian staff, including a directorate chief, management analysts,
administrative specialists, administrative assistants, engineers, security
specialists, intelligence specialists, and secretaries.

Awards. Space Directorate officials stated that awards were for outstanding
employee performance.

Benefits. According to the accounting records, benefits included health and life
insurance, retirement plan contributions, social security, and Medicare. Benefits
related to employee leave were included as labor costs.



                                    27
Recruitment. Space Directorate officials stated that recruitment costs were for a
$15,000 bonus paid to a prospective employee.

Office Lease. Office lease costs were for leased office space in Alexandria,
Virginia, for Space Directorate staff. Space Directorate officials stated that
DTRA determined that the Space Directorate occupied 6,800 square feet of office
space and that DoD leased an average of 42,757 square feet in that building for
DTRA between FY 1999 and FY 2002. DTRA allocated lease costs to the Space
Directorate as a portion of the total lease expenses for the building.

Car Lease. According to Space Directorate officials, DTRA leased five vehicles
for the Technology Security Directorate, DTRA. Space Directorate officials
stated that DTRA calculated the Space Directorate’s cost for vehicle lease costs
based on the portion of Space Directorate staff to Technology Security
Directorate staff. The officials stated that staff used the vehicles to attend
meetings in the Washington, D.C. area.

Maintenance and Storage. According to Space Directorate officials,
maintenance and storage costs included costs for storing household goods for
relocated employees.

Contracted Services. Contracted services were for administrative support for the
Space Directorate. The administrative support included the scheduling of
monitoring activities, coordinating with customers, providing support for tracking
monitoring activities, processing travel arrangements when Government
employees were absent, preparing briefings and reports, maintaining data bases,
and providing advice to improve operations. From FY 1999 through July 2002,
Anser Corporation provided the support services. Since August 2002,
Delclos/Walsh Associates, Incorporated, and Mega-Tech, Incorporated, have
provided the support services.

Reimbursements to Other Government Agencies. Space Directorate officials
stated that reimbursements to other Government agencies were for military
personnel who performed monitoring services for the Space Directorate. From
FY 1999 through FY 2002, the Space Directorate averaged four military staff.
Military staff included engineers, program analysts, and administrative
specialists.

Equipment, Supplies, and Materials. Space Directorate officials stated that
equipment, supplies, and materials were for office furniture, computer equipment,
and miscellaneous office supplies.

Permanent Change of Station. According to the accounting records and Space
Directorate officials, permanent change of station costs included relocation and
travel costs to the Washington, D.C. area for permanent employees. Also, Space
Directorate officials stated that it appears that the account included misclassified
travel costs.

Travel. Space Directorate officials stated that travel included trips made by
directorate personnel and military volunteers to attend technical meetings
between U.S. and foreign parties and to monitor satellite launches.


                                     28
Appendix D. Travel Expenses
           Travel Costs Errors. DTSA overcharged satellite exporters for travel expenses
           by over $16,800 and undercharged satellite exporters for travel expenses by about
           $150 for FY 2000 and FY 2002 (Table D-3). Those mischarges were due to the
           inaccurate recording of actual travel expenses into the automated spreadsheets
           that DTSA maintained. For example, a spreadsheet entry dated December 8,
           1999, showed travel expenses of over $5,600; however, that amount was not
           supported by the travel voucher.* Mischarges also resulted from multiple entries
           for the same travel, as was identified with a tracking sheet entry dated August 29,
           2002, in the amount of nearly $5,800. The following tables indicate errors over
           $25 that were identified in the review of 102 travel vouchers for FY 2000 through
           FY 2002. Travel vouchers were not available for 83 entries selected for review.



                          Table D-1. Unsupported Travel Costs for Fiscal Year 2000

                                           DTSA                  Travel
                     Date                Spreadsheet            Vouchers            Difference
               Overcharges:
                10/17/1999               $ 3,005.96             1,502.98            $1,502.98
                12/08/1999                 5,622.67           $ 2,410.31             3,212.36
                12/18/1999                 3,197.91             1,845.91             1,352.00

                  FY 2000
                  Overcharges            $11,826.54            $5,759.20            $6,067.34




*
    Space Directorate officials were unable to explain why there were differences between the DTSA
    spreadsheet and the travel vouchers.



                                                      29
          Table D-2. Unsupported Travel Costs for Fiscal Year 2002

                           DTSA                Travel
      Date               Spreadsheet          Vouchers             Difference
Undercharges:
  4/15/2002                2,106.80            2,256.54             (149.74)

    FY 2002
    Undercharges          $2,106.80           $2,256.54           $ (149.74)

Overcharges:
 12/08/2001                4,092.69            3,996.94               95.75
  1/14/2002                9,058.59            1,309.59            7,749.00
  8/29/2002                5,799.64            2,899.82            2,899.82

    FY 2002
    Overcharges          $18,950.92           $8,206.35       $10,744.57




          Table D-3. Summary of Undercharges and Overcharges
                                 for
                       FY 2000 Through FY 2002

           Fiscal Year         Undercharges          Overcharges

               FY 2000               0.00            $ 6,067.34
               FY 2001               0.00                  0.00
               FY 2002            $149.74             10,744.57

                Totals            $149.74            $16,811.91




                                   30
Appendix E. Differences Between Space
            Directorate and Defense Threat
            Reduction Agency Records
    Differences Between Space Directorate Spreadsheet and DTRA Accounting
    Records. The Space Directorate’s records of travel costs did not always match
    the amounts in the DTRA accounting system. Nine of the 17 travel vouchers we
    reviewed contained discrepancies of at least $25. The nine discrepancies totaled
    nearly $8,800. The following table details those differences.



                     Table E. Differences Between Space Directorate Spreadsheets
                                    and DTRA Accounting System

                                                  Spread         Accounting
       Fiscal Year                Date             Sheet          System           Difference
  FY 2000                       10/9/1999           721.02           973.77           (252.75)
                                12/8/1999         5,622.67         5,278.42            344.25

   Total FY 2000                                $ 6,343.69        $ 6,252.19       $   91.50


  FY 2001                       12/3/2000        $3,957.08         $5,530.92       $(1,573.84)
                                7/29/2001         6,894.13          7,014.70          (120.57)
                                 8/5/2001         4,860.00            110.00         4,750.00
   Total FY 2001                                $15,711.21        $12,655.62        $3,055.59


  FY 2002                       12/9/2001         1,471.17          1,441.17       $   30.00
                                1/14/2002         9,058.59          1,493.01        7,565.58
                                3/26/2002             0.00          1,784.68       (1,784.68)
                                 4/4/2002         7,860.27          8,060.27         (200.00)
   Total FY 2002                                $18,390.03        $12,779.13       $5,610.90

    Total FY 2000
    Through FY 2002                             $40,444.93        $31,686.94       $8,757.99




                                             31
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Policy
  Assistant Secretary of Defense (International Security Policy)
  Deputy Under Secretary of Defense (Technology Security Policy and
     Counterproliferation)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Threat Reduction Agency
Director, Defense Technology Security Administration

Non-Defense Federal Organization
Office of Management and Budget




                                          32
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform
House Committee on International Relations




                                        33
Under Secretary of Defense for Policy
Comments
                                                                    Final Report
                                                                     Reference




                                                                    Revised
                                                                    Page 4, 6, 7,
                                                                    13, 14




                                                                    *




*Omitted because report was revised to reflect requested changes.



                                                  35
Final Report
 Reference




*




               *Omitted because of length. Copies will be provided upon request.



                                                                36
37
Final Report
 Reference




April 2,
2004




               38
                                                                    Final Report
                                                                     Reference




                                                                    *




*Omitted because of length. Copies will be provided upon request.


                                                 39
Defense Threat Reduction Agency Comments




                    40
Team Members
The Readiness and Logistics Support Directorate, Office of the Deputy Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Evelyn R. Klemstine
Donney J. Bibb
Michael T. Brant
Lynne M. Champion
Susann L. Cobb
